                                             NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                       CLOSEOUT MEMORANDUM

Case Number: A06090044                                                                  Page 1 of 1



     An allegation was received that a proposal submitted to NSF' contained text plagiarized from a
     source document2 written by others. The source document was cited in the proposal, but the
     directly duplicated words did not appear within quotation marks. Further examination of the
     proposal shows that several lines of duplicated text were apparently taken from another cited
     document3, and these words again appear in the proposal without quotation marks. In response
     to our inquiry letter, the subject admits that the duplicated text was taken from the indicated
     sources, but, because the references appeared in the proposal, he does not understand the
     allegation of plagiarism. The subject states that the material duplicated was "trivial" and does
     not detract from the quality of the research proposed.

     Other proposals by the subject were examined and provided no evidence of plagiarism. The
     extent of plagiarism is insufficient to advance this case. However, a reminder to the subject
     about conformance with the standards of scholarship, along with a referral to the College's own
     recent publication on plagiarism4 should be sufficient to protect NSF interests.
